Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    SERVICES PROVIDED BY
      CRITICAL ACCESS
      HOSPITALS IN 2011




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       December 2013
                       OEI-05-12-00081
EXECUTIVE SUMMARY: SERVICES PROVIDED BY CRITICAL ACCESS
HOSPITALS IN 2011
OEI-05-12-00081

WHY WE DID THIS STUDY
The Critical Access Hospital (CAH) certification was created to ensure that rural beneficiaries
are able to access hospital services. For most services provided, Medicare reimburses CAHs at
101 percent of their costs rather than at the rates set by the prospective payment systems or fee
schedules. In 2011, Medicare and beneficiaries paid approximately $8.5 billion for services
provided at CAHs.

CAHs are required to provide broad classes of services, including inpatient and outpatient
services, but have latitude in what specific types of services they provide. They can also
provide optional services such as “swing bed” services, which are the equivalent of skilled
nursing services.

The purpose of this report is to aid policymakers and regulators as they consider the future role
of CAHs in the delivery of hospital services. The Office of Inspector General has
recommended that policymakers reevaluate which facilities are certified as CAHs. In addition,
the Administration has proposed to decertify some CAHs and change how remaining CAHs are
paid.

HOW WE DID THIS STUDY
We analyzed 2011 enrollment data; inpatient and outpatient claims data; and cost report data to
determine what types of services CAHs provided and the extent to which Medicare and other
patients utilize these services. To provide perspective, we compared services and service
utilization at CAHs to that within acute-care hospitals, broken out by hospital size.

WHAT WE FOUND
In 2011, CAHs provided outpatient services and, to a lesser extent, inpatient services to
approximately 5 percent of all Medicare beneficiaries. At CAHs, more than eight times as
many Medicare beneficiaries visited outpatient departments as visited inpatient departments.
Compared to beneficiaries who received care at acute-care hospitals, a slightly higher
percentage of beneficiaries who received services at CAHs received outpatient services. The
outpatient services provided by CAHs were from a wide array of hospital departments.
Laboratory services were the most commonly provided outpatient service at both CAHs and
acute-care hospitals.

CAHs’ inpatient beds, which are limited to a maximum of 25 at each CAH, were not heavily
utilized. In 2011, patients used approximately one of every five available CAH inpatient beds.
When Medicare beneficiaries did receive inpatient services at CAHs, the services provided did
not often include operating-room procedures. In addition, more CAHs used their inpatient beds
for swing-bed services (i.e., services that beneficiaries would receive in a skilled nursing
facility, such as nursing care and rehabilitative therapies) than did all acute-care hospitals. On
average, CAHs used 10 percent of their available inpatient beds to provide swing-bed services,
while acute-care hospitals used 4 percent of their available inpatient beds.
TABLE OF CONTENTS 


Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Results..........................................................................................................8 

           Medicare Beneficiaries Used CAHs Primarily for Outpatient 

           Services ............................................................................................8 

           Patients Used Approximately One of Every Five Available CAH 

           Inpatient Beds ..................................................................................9 

           CAHs Reported Providing Inpatient and Outpatient Services from

           a Wide Array of Hospital Departments ..........................................15 

           Most CAHs Provided Swing-Bed Services ...................................17 

           Few CAHs Had Distinct-Part Units...............................................18 

           Most CAHs Received Between $1 Million and $10 Million in 

           Medicare Payments for Services Provided ....................................19 

Conclusion .................................................................................................21 

Appendixes ................................................................................................22 

           Appendix A: Detailed Methodology.............................................22 

           Appendix B: Distribution of CAHs across All States ...................24 

Acknowledgments......................................................................................25 





Tables 

           Table 1: Number of Medicare Beneficiaries Who Visited Inpatient

           and Outpatient Departments at CAHs and Acute-Care Hospitals ...8 

           Table 2: CAHs’ Most Frequently Provided Types of Outpatient 

           Services ............................................................................................9 

           Table 3: Bed Utilization Rates at CAHs and Acute-Care 

           Hospitals ........................................................................................10 

           Table 4: MS-DRGs For Which CAHS Most Frequently Billed ...13 

       Table 5: Departments in Which More Than 60 Percent of CAHs 

       Provided Services...........................................................................16 

       Table 6: Departments in Which Fewer Than 50 Percent of CAHs 

       Provided Services...........................................................................17 

       Table 7: CAHs’ Swing-Bed Utilization Rates...............................18 

       Table 8: Distinct-Part Units at CAHs............................................18 

       Table 9: Mean, Median, and Range of Medicare Payments to 

       CAHs..............................................................................................20 





Charts 

       Chart 1: Medicare Beneficiaries’ Utilization of Inpatient Services 

       at CAHs and Acute-Care Hospitals................................................11

       Chart 2: Sources of Inpatient Admissions at CAHs and Acute-Care 

       Hospitals ........................................................................................12 

       Chart 3: Percentages of Surgical and Medical MS-DRGs For

       Which CAHs and Acute-Care Hospitals Billed Medicare .............14 

       Chart 4: CAH Patients’ Average Lengths of Stay .........................14 

       Chart 5: Distribution of Medicare Payments to CAHs .................19 

                   OBJECTIVE
                   To provide information for policymakers to consider while reassessing
                   how Critical Access Hospitals (CAHs) should be certified and paid,
                   including:
                        a.	 the types of services provided at CAHs in 2011;
                        b.	 how the types of services provided at CAHs in 2011 compared to
                            the types of services provided at acute-care hospitals in 2011; and
                        c.	 how much Medicare paid for services provided at CAHs in 2011.

                   BACKGROUND
                   The purpose of this report is to aid policymakers as they consider the
                   future role of CAHs in the delivery of hospital services. The Office of
                   Inspector General (OIG) has recommended that policymakers reevaluate
                   which facilities are certified as CAHs. In addition, the Administration has
                   proposed to decertify some CAHs and change how remaining CAHs are
                   paid.
                   Critical Access Hospitals
                   In 1997, the Balanced Budget Act created the CAH certification to ensure
                   that hospital care is accessible to beneficiaries in rural communities.1, 2
                   The CAH certification replaced designations for several other types of
                   rural hospitals, including the essential access community hospital, the
                   rural primary care hospital, and the Montana medical assistance facilities,
                   all of which had similar features.3 Hospitals that meet specific
                   requirements can qualify for the CAH certification and receive favorable
                   Medicare reimbursements.
                   In 2011, 1,329 CAHs were located in 45 States. These CAHs were
                   predominantly located in small, rural towns, with most owned by
                   nonprofit organizations such as private nonprofit companies; local hospital

                   1
                     Balanced Budget Act (BBA) of 1997, P.L. 105-33 § 4201. The BBA amended several
                   sections of the Social Security Act, including sections 1820, 1861(mm), 1814(l), and
                   1834(g).
                   2
                     Centers for Medicare & Medicaid Services (CMS), State Operations Manual,
                   Pub. No. 100-07, ch. 2, § 2254A. Accessed at http://cms.gov/Regulations-and-
                   Guidance/Guidance/Manuals/Internet-Only-Manuals-IOMs.html (chapter-specific URL:
                   http://cms.gov/Regulations-and-Guidance/Guidance/Manuals/Downloads/
                   som107c02.pdf) on July 7, 2011.
                   3
                     MedPAC, Report to the Congress: Medicare in Rural America, June 2001. Accessed
                   at http://www.medpac.gov/documents/jun01%20entire%20report.pdf on
                   September 27, 2013.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                              1
                   districts or authorities; and Federal, State, and local governments. Nearly
                   40 percent of these CAHs were located in seven States, including Illinois,
                   Iowa, Kansas, Minnesota, Nebraska, Texas, and Wisconsin. See
                   Appendix A for a map detailing the number of CAHs in each State.
                   In 2011, there were approximately 49 million Medicare beneficiaries.4
                   CAHs served approximately 5 percent, or 2.3 million, of these
                   beneficiaries, including 2 percent who received hospital services only at
                   CAHs and 3 percent who received hospital services at both CAHs and
                   acute-care hospitals. Medicare and beneficiaries paid approximately
                   $8.5 billion for services provided at CAHs.
                   Medicare Payments to CAHs
                   CMS pays CAHs under a different payment system than most acute-care
                   hospitals. CAHs receive 101 percent of their “reasonable costs” for most
                   services provided. 5, 6 CMS determines these costs using information from
                   CAHs’ cost reports.7 CMS pays most acute-care hospitals using inpatient
                   and outpatient prospective payment systems (IPPS and OPPS), which pay
                   predetermined rates for treating beneficiaries.8, 9 Inpatient services are
                   paid for based on the patients’ diagnoses, while outpatient services are
                   paid for based on the services provided.
                   Like other Medicare beneficiaries, beneficiaries who receive services at
                   CAHs are responsible for paying a deductible and coinsurance for some
                   outpatient services, such as office and emergency room visits and minor
                   procedures.10 Coinsurance for outpatient services provided at CAHs is
                   typically equal to 20 percent of the reasonable charges.11 Medicare
                   beneficiaries generally do not pay coinsurance for other outpatient
                   services, such as laboratory services and certain preventive outpatient
                   services.12




                   4
                     CMS, The Medicare and Medicaid Statistical Supplement, 2012 Edition. Accessed at
                   http://www.cms.gov/Research-Statistics-Data-and-Systems/Statistics-Trends-and-
                   Reports/MedicareMedicaidStatSupp/2012.html on August 27, 2013.

                   5
                     Social Security Act, §§ 1814(l) and 1834(g), 42 U.S.C. §§ 1395(l) and 1395m(g). 

                   6
                     “Reasonable costs” are the direct and indirect costs associated with providing services 

                   to Medicare beneficiaries. 42 CFR § 413.9(b)(1). 

                   7
                     Cost reports are annual reports submitted by providers to Medicare that list providers’ 

                   costs and charges for delivering healthcare services. 

                   8
                     Social Security Act, § 1886(d) and (g), 42 U.S.C. § 1395ww(d) and (g).

                   9
                     Social Security Act, § 1833, 42 U.S.C. § 1395l.

                   10
                      Social Security Act, § 1866(a)(2)(A), 42 U.S.C. § 1395cc(a)(2)(A). 

                   11
                      Ibid. 

                   12
                      Social Security Act, § 1833(a)(1), 42 U.S.C. § 1395l(a)(1).



Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                     2
                   Medicare Requirements for CAH Certification
                   Facilities must meet the requirements set forth in the CAH Conditions of
                   Participation to receive the CAH certification. Conditions of Participation
                   are health-, safety-, and location-related requirements that facilities must
                   meet to participate in the Medicare program as CAHs. CAH Conditions
                   of Participation include being located (1) in rural areas and (2) at a certain
                   distance from other hospitals or CAHs (hereinafter referred to collectively
                   as the “location requirements”); having 25 or fewer beds used for inpatient
                   care or “swing bed” services; and having an average length of patient stay
                   that does not exceed 96 hours (hereinafter referred to as the “4-day
                   requirement”).13, 14, 15
                   Maintaining CAH Certification
                   CAHs are subject to periodic reassessments of their compliance with the
                   CAH Conditions of Participation. CMS staff report that the current
                   practice is to complete these reassessments every 3 years on average. For
                   CAHs to maintain their certifications, CMS or a CMS-approved Medicare
                   CAH accreditation program must verify that the CAHs continue to meet
                   all CAH Conditions of Participation.16
                   CAH Services
                   CAHs are required to provide inpatient and outpatient services but have
                   latitude in the specific services they provide. These services can include
                   surgical, medical, and diagnostic services.17 Surgical services include
                   operating-room procedures, like appendectomies and joint replacements.
                   Medical services include all treatment services other than operating-room
                   procedures, like the treatment of concussions or kidney stones. Diagnostic
                   services, like imaging and laboratory services, are used to diagnose
                   diseases. CAHs can also provide other types of services used to facilitate
                   medical, surgical, and diagnostic services, such as ambulance services.
                   Beyond inpatient and outpatient services, CAHs can also provide
                   swing-bed services. Swing-bed services are equivalent to services that a


                   13
                      Social Security Act, § 1820(c)(2), 42 U.S.C. § 1395i-4(c)(2); CMS, State Operations

                   Manual, Pub. No. 100-07, ch. 2, § 2256F. Accessed online on July 7, 2011; for URL 

                   details, see footnote 2.

                   14
                      42 CFR § 485.620(a). A “swing bed” is a CAH bed that is reimbursed for skilled

                   nursing services. 

                   15
                      42 CFR § 485.620(b). 

                   16
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, §§ 2021A and 2022B. 

                   Accessed online on July 7, 2011; for URL details, see footnote 2.

                   17
                      42 CFR § 485.635; CMS, State Operations Manual, Pub. No. 100-07, Appendix W.

                   Accessed at http://cms.gov/Regulations-and-Guidance/Guidance/Manuals/Internet-Only-

                   Manuals-IOMs.html (appendix-specific URL: http://cms.hhs.gov/Regulations-and-
                   Guidance/Guidance/Manuals/downloads/som107ap_w_cah.pdf) on July 7, 2011. 


Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                3
                   beneficiary would receive in a skilled nursing facility, such as nursing care
                   and rehabilitation therapies. 18,19
                   Finally, CAHs can also provide inpatient services in “distinct-part”
                   psychiatric and rehabilitation units.20 Distinct-part psychiatric and
                   rehabilitation units (hereinafter referred to collectively as “distinct-part
                   units”) are inpatient units that are certified separately by Medicare and are
                   distinct from CAHs’ other inpatient operations.21
                   CMS pays CAHs differently for services provided in distinct-part units
                   than it does for services provided in other units at CAHs. Unlike CAH
                   inpatient, outpatient, and swing-bed services, which Medicare reimburses
                   at 101 percent of cost, Medicare reimburses services provided in
                   distinct-part rehabilitation and psychiatric units at the rates set by the IPPS
                   for rehabilitation facilities and psychiatric facilities, respectively.22
                   Proposed CAH Changes
                   Medicare payments to CAHs have come under increased scrutiny as part
                   of ongoing deficit-reduction discussions. In September 2011, the
                   Administration published its Plan for Economic Growth and Deficit
                   Reduction.23 The Plan proposed reducing CAH reimbursements to
                   100 percent of reasonable costs and eliminating the critical access
                   certification for CAHs located fewer than 10 miles from another hospital.24
                   The Administration’s proposed budget for fiscal year 2014 made the same
                   recommendations and estimated the savings over 10 years to be
                   $1.4 billion from reducing reimbursement from 101 percent of reasonable
                   costs to 100 percent, and $690 million from eliminating the critical access
                   certifications of CAHs located fewer than 10 miles from another
                   hospital.25
                   Related Work
                   In August 2013, OIG issued a report that focused on how many CAHs
                   would meet the location requirements if required to re-enroll in Medicare.

                   18
                      42 CFR § 485.645.

                   19
                      42 CFR § 409.20(a). 

                   20
                      42 CFR § 485.647.

                   21
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-4, ch. 3, § 30.1. Accessed 

                   at http://cms.gov/Regulations-and-Guidance/Guidance/Manuals/Internet-Only-Manuals-
                   IOMs.html (chapter-specific URL: http://cms.gov/Regulations-and-Guidance/Guidance/ 

                   Manuals/Downloads/clm104c03.pdf) on July 30, 2013. 

                   22
                      42 CFR § 413.74(e); 42 CFR pt. 412, subpts. N and P.

                   23
                      Office of Management and Budget (OMB), Living Within Our Means and Investing in

                   the Future: The President’s Plan for Economic Growth and Deficit Reduction, 

                   September 2011. Accessed at http://www.whitehouse.gov/sites/default/files/omb/budget/

                   fy2012/assets/jointcommitteereport.pdf on October 24, 2011.

                   24
                      Ibid., p. 36. 

                   25
                      OMB, Fiscal Year 2014 Budget of the U.S. Government, p. 196, 2013.


Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                               4
                   OIG found that 64 percent of CAHs would not have been able to do so,
                   and that Medicare and beneficiaries could realize substantial savings if
                   CMS de-designated some of these CAHs and recertified them as acute-
                   care hospitals.26 OIG recommended that CMS seek legislative authority to
                   assess whether existing CAHs should retain their critical access
                   certifications. In addition, OIG recommended that CMS seek legislative
                   authority to revise the CAH conditions of participation to include
                   measures of whether CAHs serve beneficiaries who would otherwise be
                   unable to reasonably access hospital services. These criteria could be used
                   to further evaluate a hospital’s CAH certification in cases where the
                   hospital did not meet the current requirements related to its location. CMS
                   concurred with the first recommendation but did not concur with the
                   second.
                   Additionally, OIG is conducting a nationwide review of the coinsurance
                   that Medicare beneficiaries paid for outpatient services received at CAHs.
                   Finally, OIG is conducting a nationwide review of swing-bed services at
                   CAHs.27 The review compares the reimbursement for swing-bed services
                   at CAHs to the reimbursement for the same level of care obtained at
                   skilled nursing facilities for 2005–2010.

                   METHODOLOGY
                   This study provides descriptive information about CAHs nationwide in
                   2011. We analyzed 2011 enrollment data, inpatient and outpatient claims
                   data, and cost report data. Our purpose was to determine where CAHs
                   were located, who received services at CAHs, what types of entities
                   owned CAHs, how much Medicare paid CAHs, and what types of
                   inpatient and outpatient services CAHs provided.
                   In some cases, we also compared CAHs to acute-care hospitals. When
                   comparing CAHs to acute-care hospitals, we frequently categorized
                   acute-care hospitals into three groupings based on their size: small (fewer
                   than 100 beds), medium-sized (between 100–399 beds), and large (400 or
                   more beds).28 The term “acute-care hospitals” does not include
                   psychiatric, rehabilitation, long-term care, and children’s hospitals,
                   because these hospitals have operations distinct from CAHs.

                   26
                      OIG, Most Critical Access Hospitals Would Not Meet the Location Requirements If
                   Required To Re-Enroll in Medicare, OEI-05-12-00080, August 2013. 

                   27
                      OIG, U.S. Department of Health and Human Services Office of Inspector General

                   Work Plan: Fiscal Year 2013, Part I, p. 7. Accessed at https://oig.hhs.gov/reports-and-
                   publications/archives/workplan/2013/Work-Plan-2013.pdf on September 23, 2013. 

                   28
                      We used the American Hospital Association’s definitions of hospital size to establish

                   the three groupings. American Hospital Association, Glossary, 2012. Accessed at 

                   http://www.ahadataviewer.com/glossary/ on June 13, 2013. 


Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                       5
                   We did not assess CAHs’ compliance with any Conditions of
                   Participation. An earlier OIG report did assess whether CAHs would meet
                   some of the Conditions of Participation—specifically, the location
                   requirements—in 2011.29
                   Data Sources
                   Certification and Survey Provider Enhanced Reports (CASPER) database.
                   The CASPER database includes data generated from certification surveys
                   and includes information such as provider addresses and type of
                   ownership. We used the CASPER database to identify the 1,329 CAHs
                   and 3,547 acute-care hospitals included in this study. We also used the
                   CASPER database to determine the addresses for all CAHs.
                   2011 National Claims History (NCH) inpatient and outpatient files. The
                   2011 NCH inpatient and outpatient files contain the final inpatient and
                   outpatient claims data submitted by hospital providers for Medicare
                   reimbursement. The 2011 NCH files include data only for Medicare
                   beneficiaries. Although CAHs are not paid under a prospective payment
                   system, the NCH inpatient file contains the applicable Medicare severity
                   diagnosis related groups (MS-DRGs) based on information submitted on
                   the claim. We used the MS-DRG present on the claim in our analysis, and
                   hereinafter refer to the inpatient services provided to CAH inpatients as
                   “MS-DRGs.”
                   Fiscal Year (FY) 2010 and 2011 hospital cost reports. Hospitals are
                   required to file annual cost reports with CMS. Hospital cost reports
                   contain provider information such as facility characteristics and annual
                   costs, and they include data for all hospital patients. We used
                   2010 hospital cost report data whenever 2011 hospital cost report data was
                   not available on CMS’s Healthcare Provider Cost Reporting Information
                   System.30




                   29
                      OIG, Most Critical Access Hospitals Would Not Meet the Location Requirements If
                   Required To Re-Enroll in Medicare, OEI-05-12-00080, August 2013.
                   30
                      CMS, Cost Reports, July 25, 2013. Accessed at http://www.cms.gov/Research-
                   Statistics-Data-and-Systems/Files-for-Order/CostReports/Cost-Reports-by-Fiscal-
                   Year.html on July 30, 2013.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                6
                   Data Analysis
                   Grouping acute-care hospitals by size. To classify acute-care hospitals by
                   size, we used number of inpatient beds each hospital reported on its most
                   recent cost report. Of the 3,547 acute-care hospitals included in this study,
                   we classified 1,290 as small, 1,770 as medium-sized, and 380 as large.
                   We did not classify the remaining 107 acute-care hospitals because a cost
                   report was not available or the cost report did not have information about
                   the number of inpatient beds.
                   Services provided by CAHs and acute-care hospitals. To describe the
                   types of services provided by CAHs and acute-care hospitals, we used the
                   inpatient and outpatient claims data and cost report data. Appendix A
                   provides a detailed description of our analysis methods, cross-referenced
                   to the corresponding table or chart in our results.
                   Medicare payments for CAH services. To determine the amounts that
                   Medicare paid for services provided at CAHs, we used the inpatient and
                   outpatient claims data. To determine the total Medicare payment for each
                   service, we summed the amount paid by Medicare and the amount paid by
                   the beneficiary in the form of deductible or coinsurance. We then
                   summed total payments for each CAH, and determined the percentage of
                   each CAH’s total Medicare payments that came from inpatient services,
                   outpatient services, and swing-bed services.
                   Limitations
                   Our analysis that used hospital cost report data does not account for the
                   entire CAH and acute-care hospital population as some of these hospitals
                   are not represented in the data. There were 51 CAHs and 208 acute-care
                   hospitals that did not have 2011 cost report data. We were able to
                   incorporate 33 of these CAHs and 130 of these acute-care hospitals into
                   our analyses by using their 2010 cost report data. However, neither
                   2011 nor 2010 cost report data were available for 18 CAHs and
                   78 acute-care hospitals. To identify those instances where our analyses do
                   not include all CAHs or hospitals, all tables and charts include listings of
                   sample sizes and data sources.
                   Additionally, we analyzed cost report data as reported by hospitals to
                   CMS. This data may include figures reported in error; we did not perform
                   tests designed to determine the reliability of the data.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.



Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                      7
                      RESULTS

                      Medicare Beneficiaries Used CAHs Primarily for Outpatient
                      Services
                      At CAHs, more than eight times as many Medicare beneficiaries visited
                      outpatient departments as visited inpatient departments. Approximately
                      2.3 million beneficiaries visited CAHs in 2011. More than 99 percent of
                      these beneficiaries visited outpatient departments. Conversely,
                      approximately 12 percent of all beneficiaries who visited CAHs in
                      2011 visited the CAHs’ inpatient departments.31
                      Similarly, most Medicare beneficiaries who received services at acute-care
                      hospitals visited outpatient departments. However, compared to
                      beneficiaries who received services at acute-care hospitals, a higher
                      percentage of beneficiaries who received services at CAHs received
                      outpatient services. Table 1 describes the frequency with which
                      beneficiaries visited CAH and acute-care hospital inpatient and outpatient
                      departments in 2011.

Table 1: Number of Medicare Beneficiaries Who Visited Inpatient and Outpatient
Departments at CAHs and Acute-Care Hospitals
                                                                                                      Average number of
                                                                Number of     Percentage of
                                                                                                Medicare beneficiaries per
 Type of hospital           Department visited                   Medicare         Medicare
                                                                                            *          CAH or acute-care
                                                              beneficiaries   beneficiaries
                                                                                                                  hospital

                            All visits                           2,329,674                                          1,753

 CAHs (n = 1,329)           Inpatient department                   282,584              12%                           213

                            Outpatient department                2,316,675              99%                         1,743

                            All visits                           4,850,351                                          3,760
 Small hospitals
                            Inpatient department                   903,862              19%                           701
 (n = 1,290)
                            Outpatient department                4,562,533              94%                         3,537

                            All visits                          16,602,499                                          9,380
 Medium-sized
 hospitals                  Inpatient department                 5,197,601              31%                         2,936
 (n = 1,770)
                            Outpatient department               14,530,420              88%                         8,209

                            All visits                           9,673,498                                         25,457
 Large hospitals
                            Inpatient department                 2,990,587              31%                         7,870
 (n = 380)
                            Outpatient department                8,334,349              86%                        21,932
 Source: OIG analysis of NCH outpatient claims files, 2013.
 *
   See footnote 31.



                      31
                         The overlap in percentage is attributable to the fact that some beneficiaries received
                      both inpatient and outpatient services.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                8
                       CAHs provided outpatient services that were also commonly provided by
                       acute-care hospitals. The outpatient services that CAHs provided
                       Medicare beneficiaries were similar to those provided by acute-care
                       hospitals. Table 2 presents the types of services that CAHs provided most
                       frequently to Medicare beneficiaries in 2011 and includes listings of where
                       those types of services rank in frequency relative to other types of
                       outpatient services provided at acute-care hospitals.32

Table 2: CAHs’ Most Frequently Provided Types of Outpatient Services
                                           CAHs (n = 1,329)                   Acute-care hospitals (n = 3,547)

 Type of service                              Number of times service                   Number of times service was
                              Ranking                                      Ranking
                                                        was provided                                       provided

 Laboratory services                   1                      27,685,701         1                   863,400,271,981

 Minor procedures                      2                       5,708,563         2                   122,803,730,011

 Standard imaging                      3                       3,130,118         3                   101,639,705,004

 Other services                        4                       2,670,140         4                     95,709,588,710

 Office visits                         5                       1,738,412         5                     53,836,968,851

 Emergency room visits                 6                       1,571,794         6                     44,011,438,663

 Other tests                           7                       1,343,317         7                     41,871,350,888

 Specialist services                   8                        883,244         10                     14,233,675,446

 Advanced imaging                      9                        844,236          8                     34,817,749,217

 Ultrasound/echography               10                         484,898          9                     19,440,571,950
 Source: OIG analysis of NCH outpatient claims files, 2013.




                       Patients Used Approximately One of Every Five Available CAH
                       Inpatient Beds
                       Patients used 21 percent of CAHs’ available bed days in 2011. Available
                       bed days are the total number of inpatient beds in a hospital multiplied by
                       the number of days in a year. Bed utilization rates represent the
                       percentage of hospital bed days occupied over a set period.
                       Patients’ utilization of CAHs’ available bed days was far less than at
                       acute-care hospitals. Small acute-care hospitals had the lowest average
                       bed utilization rate of all acute-care hospitals. However, CAHs’ average
                       bed utilization rate of 21 percent was still lower than the 37 percent
                       average bed utilization rate at small acute-care hospitals. Table 3 presents
                       CAHs’ and acute-care hospitals’ average number of beds, their average

                       32
                         Because CAHs’ most frequently provided types of outpatient services closely aligned
                       with those most frequently provided by acute-care hospitals, we did not divide acute-care
                       hospitals into the three groupings based on hospital size.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                           9
                       total available bed days, their average total inpatient bed days used by all
                       CAH patients, and CAHs’ and acute-care hospitals’ annual average bed
                       utilization rates in 2011.33 These figures include general inpatient stays
                       and exclude swing-bed or distinct-part inpatient stays.

Table 3: Bed Utilization Rates at CAHs and Acute-Care Hospitals

                                                                                           Annual average bed
                                 Average         Annual average                                 utilization rate
                                                                    Annual average total
                               number of          total available                               (percentage of
                                                                         inpatient days
                                    beds                bed days                            available bed days
                                                                                                      occupied)


 CAH (n = 1,311)                        22                 8,042                  1,726                    21%


 Small hospitals
                                        52                18,972                  7,046                    37%
 (n = 1,290)

 Medium-sized
                                       205                74,655                 42,240                    57%
 hospitals (n = 1,770)

 Large hospitals
                                       608               214,585                139,582                    65%
 (n = 380)
Source: OIG analysis of hospital cost reports, 2013.



                       Inpatient beds at CAHs were primarily used by Medicare beneficiaries.
                       Medicare beneficiaries used approximately 62 percent of all inpatient bed
                       days at CAHs. In addition, CAHs provided a greater percentage of their
                       total inpatient bed days to Medicare beneficiaries than did acute-care
                       hospitals. Chart 1 illustrates the frequency with which Medicare
                       beneficiaries utilized inpatient services at CAHs and acute-care hospitals.
                       This chart shows the percentage of inpatient bed days occupied by
                       Medicare beneficiaries at CAHs and acute-care hospitals.




                       33
                            We used 2010 cost report data for 33 CAHs and 130 acute-care hospitals.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                           10
                   Chart 1: Medicare Beneficiaries’ Utilization of Inpatient Services at CAHs
                   and Acute-Care Hospitals

                        70%

                        60%

                        50%

                        40%

                                                                                                            Percent of total
                        30%
                                                                                                            inpatient bed days
                                                                                                            used by Medicare
                        20%                                                                                 beneficiaries

                        10%

                        0%
                                    CAHs            Small hospitals        Medium-sized   Large hospitals
                                 (n = 1,311)         (n = 1,290)             hospitals       (n = 380)
                                                                            (n = 1,770)


                    Source: OIG analysis of hospital cost reports, 2013.



                   Most of CAHs’ Medicare inpatient admissions were emergency or urgent
                   admissions. CAHs’ inpatient admissions for Medicare beneficiaries
                   primarily resulted from emergency room visits and from occasions in
                   which beneficiaries needed urgent care and were admitted to the first
                   available accommodation. Emergency room visits and instances where
                   beneficiaries needed urgent care accounted for approximately 74 percent
                   of CAHs’ inpatient admissions. Elective admissions, meaning instances in
                   which Medicare beneficiaries pre-authorized their admissions, accounted
                   for 26 percent of CAHs’ inpatient admissions. Other types of admissions
                   accounted for less than 1 percent of CAHs’ inpatient admissions.34
                   Emergency admissions at CAHs were a smaller percentage of all
                   admissions than they were at acute-care hospitals. Conversely, urgent and
                   elective admissions were a larger percentage of all admissions at CAHs
                   than they were at acute-care hospitals. Chart 2 summarizes the sources of
                   inpatient admissions for CAHs and acute-care hospitals.




                   34
                     Research Data Assistance Center, Claim Inpatient Admission Type Code. Accessed at
                   http://www.resdac.org/cms-data/variables/Claim-Inpatient-Admission-Type-Code on
                   July 30, 2013.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                            11
                   Chart 2: Sources of Inpatient Admissions at CAHs and Acute-Care
                   Hospitals

                     70.0%

                     60.0%

                     50.0%

                     40.0%                                                                  Emergency
                     30.0%                                                                  Urgent
                                                                                            Elective
                     20.0%
                                                                                            Other
                     10.0%

                      0.0%
                                     CAHs               Small    Medium‐sized     Large
                                  (n = 1,329)         hospitals    hospitals    hospitals
                                                     (n = 1,290)  (n = 1,770)   (n = 380)

                   Source: OIG analysis of NCH inpatient claims files, 2013.


                   CAHs provided few surgical inpatient surgical services. The MS-DRGs
                   for which CAHs most frequently billed were primarily medical rather than
                   surgical. Except for joint replacements, these MS-DRGs were for the
                   treatment of illnesses like pneumonia, kidney and urinary tract infections,
                   and digestive disorders. Although joint replacements were CAHs’
                   eighth most frequently billed MS-DRG, only 432 CAHs (approximately
                   33 percent of CAHs) provided this service to Medicare beneficiaries.
                   The MS-DRGs for which CAHs most frequently billed were different
                   from those most frequently billed for by acute-care hospitals.
                   Table 4 presents a ranking of the MS-DRGs for which CAHs billed most
                   frequently for Medicare beneficiaries in 2011 and includes listings of how
                   those MS-DRGs rank in frequency relative to other MS-DRGs billed for
                   by acute-care hospitals.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                12
Table 4: MS-DRGs For Which CAHs Most Frequently Billed
                                                                       Small hospitals            Medium-sized             Large hospitals
                                          CAHs (n = 1,329)
                                                                         (n = 1,290)            hospitals (n = 1,770)         (n = 380)


               Description of                         Number                       Number                     Number                   Number
 Ranking                                Number
               MS-DRG*                                of times                     of times                   of times                 of times
                                        that
                                                      MS-DRG        Ranking        MS-DRG       Ranking       MS-DRG     Ranking       MS-DRG
                                        provided
                                                      was                          was                        was                      was
                                        service
                                                      billed                       billed                     billed                   billed

               Simple pneumonia
               & pleurisy w/CC
 1                                           1,295       23,137               2      41,798               6    141,060             9     58,599
               [complications or
               comorbidities]
               Simple pneumonia
               & pleurisy w/o
 2             CC/MCC [major                 1,297       18,486             14       20,761           32        58,572           46      21,639
               complications or
               comorbidities]
               Kidney & urinary
 3             tract infections w/o          1,273       17,680               5      33,233               5    149,070             6     69,468
               MCC
               Esophagitis,
               gastroent & misc
 4                                           1,269       16,183               4      33,720               3    180,511             3     90,233
               digest disorders
               w/o MCC
               Chronic obstructive
 5             pulmonary disease             1,247       15,279               8      26,031           20        86,997           30      30,958
               w/o CC/MCC
               Misc disorders of
               nutrition,
 6             metabolism,                   1,285       14,949               7      26,781           13       109,593           14      51,137
               fluids/electrolytes
               w/o MCC
               Heart failure &
 7                                           1,233       10,729               6      31,075               4    160,787             4     83,688
               shock w/CC
               Major joint
               replacement or
 8             reattachment of                 432       10,181               1      75,216               1    313,238             1    149,502
               lower extremity w/o
               MCC
               Heart failure &
 9                                           1,217         9,889            19       16,636           30        67,623           31      30,782
               shock w/o CC/MCC

 10            Cellulitis w/o MCC            1,234         9,398            11       22,358           15       107,254           16      49,234
 Source: OIG analysis of NCH inpatient claims files, 2013. 

*Wording for MS-DRG descriptions is verbatim from CMS’s FY 2011 IPPS Final Rule Data Files. 



                      CAHs provided fewer inpatient services that included operating-room
                      procedures than did acute-care hospitals. Approximately 8 percent of the
                      MS-DRGs for which CAHs billed Medicare were surgical MS-DRGs.
                      Comparatively, approximately 21 percent of the MS-DRGs for which
                      small acute-care hospitals—the hospital size most similar to that of
                      CAHs—billed Medicare were surgical MS-DRGs. Chart 3 illustrates the
                      percentages of surgical, medical, and unclassified MS-DRGs for which
                      CAHs and acute-care hospitals billed Medicare.



Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                    13
                   Chart 3: Percentages of Surgical and Medical MS-DRGs For Which CAHs
                   and Acute-Care Hospitals Billed Medicare
                             100%
                             90%
                             80%
                             70%
                                                                                                                  Unclassified MS-DRGs
                             60%
                             50%                                                                                  Medical MS-DRGs
                             40%
                             30%                                                                                  Surgical MS-DRGs
                             20%
                             10%
                              0%
                                           CAHs           Small hospitals      Medium-sized     Large hospitals
                                        (n = 1,329)        (n = 1,290)           hospitals         (n = 380)
                                                                                (n= 1,770)


                   Source: OIG analysis of NCH inpatient claims files, 2013.


                   Most CAHs had average inpatient stays of 3–4 days. Most CAHs’ annual
                   average lengths of stays fell within the statutory 4-day requirement,
                   although the average length of stay at a few CAHs appears to have
                   exceeded 4 days. Chart 4 shows CAHs’ average lengths of stays for all
                   patients in 2011.

                   Chart 4: CAH Patients’ Average Lengths of Stays



                      900
                      800
                      700
                      600
                      500
                      400
                                                                                                          Number of CAHs
                      300                                                                                 (n = 1,311)
                      200
                      100
                         0
                               Less than 3 days             3-4 days           Greater than 4 days



                   Source: OIG analysis of hospital cost reports, 2013.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                   14
                   CAHs Reported Providing Outpatient and Inpatient Services
                   from a Wide Array of Hospital Departments
                   CAHs provided inpatient and outpatient services from a variety of
                   departments to Medicare beneficiaries in 2011. More than 75 percent of
                   CAHs provided services in cardiology, respiratory, and operating-room
                   departments; conversely, fewer than 25 percent of CAHs provided
                   services in oncology, inpatient dialysis, or behavioral health departments.
                   Table 5 lists the departments from which more than 60 percent of CAHs
                   provided services, and Table 6 lists the departments from which fewer
                   than 50 percent of CAHs provided services.35




                   35
                      There were no departments in which services were provided by more than 50 percent,
                   but less than 60 percent, of CAHs in 2011.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                   15
Table 5: Departments in Which More Than 60 Percent of CAHs Provided Services

                                                                           Number of CAHs
 Department                                                                                  Percentage of CAHs
                                                                               (n = 1,329)

 Pharmacy                                                                            1,326                >99%

 Radiology – diagnostic                                                              1,319                >99%

 EKG/ECG (electrocardiogram)                                                         1,319                >99%

 Laboratory                                                                          1,319                >99%

 Emergency room                                                                      1,319                >99%

 Specialty services                                                                  1,312                 99%

 Physical therapy                                                                    1,297                 98%

 CT scan                                                                             1,282                 97%

 Other imaging services                                                              1,268                 95%

 Other diagnostic services                                                           1,252                 94%

 Cardiology                                                                          1,211                 91%

 Pulmonary function                                                                  1,169                 88%

 Respiratory services                                                                1,162                 87%

 Operating-room services                                                             1,136                 86%

 Other therapeutic services                                                          1,096                 83%

 Magnetic resonance technology (MRT)                                                 1,080                 81%

 Speech therapy - language pathology                                                 1,023                 77%

 Occupational therapy                                                                1,011                 76%

 IV therapy                                                                           978                  74%

 Anesthesia                                                                           962                  72%

 Preventive care services                                                             932                  70%

 Laboratory - pathology                                                               877                  66%

 Nuclear medicine                                                                     823                  62%
Source: OIG analysis of NCH inpatient and outpatient claims files, 2013.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                          16
Table 6: Departments in Which Fewer Than 50 Percent of CAHs Provided Services


                                                             Number of CAHs that
                                                                                      Percentage of CAHs
 Department                                                     provided service
                                                                                     that provided service
                                                                       (n = 1,329)


 EEG (electroencephalogram)                                                   592                    45%
 Intensive care                                                               505                    38%
 Gastrointestinal (GI) services                                               487                    37%
 Radiology - therapeutic and/or chemotherapy
                                                                              451                    34%
 administration
 Ambulance                                                                    302                    23%

 Behavioral health treatment/services                                         230                    17%

 Ambulatory surgical care                                                     202                    15%
 Labor room/delivery                                                          202                    15%
 Coronary care                                                                151                    11%
 Audiology                                                                    121                     9%
 Trauma response                                                              120                     9%
 Oncology                                                                      58                     4%
 Inpatient renal dialysis                                                      40                     3%

 Extra-corporeal shock wave therapy                                            36                     3%

 Osteopathic services                                                          10                    <1%
 Nursery                                                                        2                    <1%
Source: OIG analysis of NCH inpatient and outpatient claims files, 2013.


                       Most CAHs Provided Swing-Bed Services
                       In addition to inpatient and outpatient services, approximately 92 percent
                       of CAHs (1,212 CAHs) provided swing-bed services to their patients in
                       2011. Swing-bed services include the same types of services that
                       beneficiaries would receive in a skilled nursing facility, such as nursing
                       care and rehabilitative therapies.
                       More CAHs provided swing-bed services than acute-care hospitals. In
                       2011, 29 percent of small acute-care hospitals (368 hospitals) and
                       2 percent of medium-sized acute-care hospitals (36 hospitals) provided
                       this service. Hospitals with more than 100 beds (excluding beds for
                       newborns and in intensive care units) are not permitted to offer swing-bed
                       services. 36
                       CAHs on average used proportionally more of their available bed days
                       supplying swing-bed services than did acute-care hospitals. On average,

                       36
                            42 CFR § 482.66(a)(1).

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                     17
                       CAHs used 10 percent of their total available bed days supplying
                       swing-bed services, while small and medium-sized acute-care hospitals
                       used approximately 4 percent of their total available bed days supplying
                       those services. Table 7 lists the number of hospitals that provided
                       swing-bed services, the average total swing-bed days used by all CAH
                       patients, and average total swing-bed days as a percentage of average total
                       available bed days for CAHs and acute care hospitals.37


Table 7: CAHs’ Swing-Bed Utilization Rates

                                   Number of                                                                            Average total
                                hospitals that          Average total                                           swing-bed days as a
                                                                                         Average total
                                    provided            available bed                                          percentage of average
                                                                     *                 swing-bed days
                                   swing-bed                    days                                               total available bed
                                    services                                                                                      days

 CAHs (n = 1,311)                          1,212                  7,799                               784                        10%

 Small hospitals
                                             368                 17,138                               648                         4%
 (n = 1,290)

 Medium-sized
                                               36                40,832                             1,513                         4%
 hospitals (n = 1,770)
Source: OIG analysis of hospital cost reports, 2013.
* This figure includes general acute-care and swing-bed inpatient days, and excludes distinct-part inpatient days.


                       Few CAHs Had Distinct-Part Units
                       Most CAHs did not have distinct-part units in 2011. Only 6 CAHs had
                       distinct-part rehabilitation units and 60 CAHs had distinct-part psychiatric
                       units in 2011. Table 8 describes the number of CAHs that had
                       distinct-part units and the number of Medicare beneficiaries who received
                       services in these units.


Table 8: Distinct-Part Units at CAHs


                                                       Number of CAHs                   Total number of           Average number of
                                                                that had                       Medicare                      Medicare
                                                      distinct-part units                  beneficiaries        beneficiaries per CAH



                   Rehabilitation
                                                                           6                           495                         83
 CAHs              distinct-part units
 (n = 1,329)       Psychiatric distinct-part
                                                                          60                         6,545                        109
                   units
Source: OIG analysis of NCH inpatient claims file, 2013.




                       37
                          Hospitals’ total swing-bed days represents the number of days annually that are
                       occupied by patients receiving swing-bed services.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                             18
                   Most CAHs Received Between $1 Million and $10 Million in
                   Medicare Payments for Services Provided
                   Medicare payments for all types of services provided at CAHs in
                   2011 ranged from less than $1 million to more than $26 million. Most
                   CAHs received between $1 million and $10 million in total Medicare
                   payments. Chart 5 illustrates the distribution of Medicare payments to
                   CAHs in 2011.


                   Chart 5: Distribution of Medicare Payments to CAHs

                     700


                     600


                     500


                     400

                                                                                                           Number of CAHs
                     300                                                                                   (n = 1,329)

                     200


                     100


                       0
                             Less than $1      $1 million–$5 $5 million–$10 $10 million–$15 Greater than
                                million           million        million        million      $15 million

                   Source: OIG analysis of NCH inpatient and outpatient claims files, 2013.



                   In 2011, the average CAH received approximately $6.4 million in
                   Medicare payments. Of Medicare payments to the average CAH,
                   approximately 30 percent were for inpatient services, 51 percent were for
                   outpatient services, 19 percent were for swing-bed services, and 1 percent
                   was for distinct-part psychiatric and rehabilitation services. See
                   Table 9 for a description of Medicare payments to CAHs in 2011.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                        19
Table 9: Mean, Median, and Range of Medicare Payments to CAHs

                                                                               Mean        Median    Minimum     Maximum


                 Total Medicare payments                                   $6,360,349   $5,498,080   $147,916   $26,788,129

                 Medicare payments for inpatient services                  $2,091,719   $1,542,403        $0    $12,588,660

                 Medicare payments for outpatient services                 $3,302,590   $2,684,886    $92,723   $14,765,124

                 Medicare payments for swing-bed services                   $966,040     $781,938         $0     $8,093,736
CAHs
(n = 1,329)      Percentage of total Medicare payments for
                                                                               30.3%        29.7%         0%         71.4%
                 inpatient services

                 Percentage of total Medicare payments for
                                                                               50.6%        50.9%      11.3%         100%
                 outpatient services

                 Percentage of total Medicare payments for
                                                                               19.1%        17.1%         0%         83.7%
                 swing-bed services
Source: OIG analysis of NCH inpatient and outpatient claims files, 2013.




                       Some CAHs receive large percentages of their Medicare payments for just
                       one type of service. For example, 53 CAHs received more than 50 percent
                       of their Medicare payments for swing-bed services, including 5 CAHs that
                       received more than 75 percent of their Medicare payments for such
                       services. Similarly, 17 CAHs received more than 80 percent of their
                       Medicare payments for outpatient services, including 7 CAHs that
                       received more than 95 percent of their Medicare payments for such
                       services.
                       Some CAHs received a low percentage of their total Medicare payments
                       for inpatient services. In 2011, 54 CAHs received less than 10 percent of
                       their Medicare payments for inpatient services, including 8 CAHs that
                       received less than 3 percent of their Medicare payments for such services
                       and 4 CAHs that did not receive any Medicare payments for inpatient
                       services.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                 20
                   CONCLUSION
                   This report provides information about the services CAHs provided in
                   2011 and to what extent Medicare beneficiaries and other patients used
                   these services. Policymakers and regulators can use the information
                   provided in this work as they consider recommended changes to CAH
                   certification requirements and payments.
                   In August 2013, OIG made several recommendations about how facilities
                   are certified and recertified as CAHs. OIG recommended that CMS seek
                   legislative authority to assess whether existing CAHs should retain their
                   certifications. OIG has further recommended that CMS seek legislative
                   authority to revise the CAH conditions of participation to include
                   measures of whether CAHs serve beneficiaries who would otherwise be
                   unable to reasonably access hospital services. CMS could use these
                   measures to further evaluate a hospital’s CAH certification in cases where
                   the hospital did not meet the current requirements related to its location.
                   Additionally, the Administration’s 2014 budget contains proposals about
                   changes in the CAH certification requirements and how much Medicare
                   should reimburse CAHs for their services. The budget proposes that
                   CAHs within 10 miles of another hospital lose their certification. The
                   budget also proposes decreasing Medicare reimbursement from 101 to
                   100 percent of costs.
                   As policymakers consider OIG’s recommendations and the
                   Administration’s proposals, they should consider OIGs’ previous work on
                   CAHs, the current report, and future work on the topic. Previous OIG
                   work examined the location of CAHs relative to other hospitals.
                   Upcoming work will examine beneficiaries’ coinsurance burden when
                   receiving CAH outpatient services and Medicare reimbursement for
                   swing-bed services.
                   Finally, additional insights into the role CAHs play in the healthcare
                   system might be gained by conducting more detailed analyses of
                   individual CAHs and the capacity of the healthcare systems that are in
                   close proximity to CAHs.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                     21
                     APPENDIX A

                     Detailed Methodology

Table A-1: Analyses, Sources, and Methods by Table or Chart

                              Table/
 Analysis                               Source                                                                       Method
                              Chart
 Number of Medicare
                                        Inpatient
 beneficiaries who visited
                                        and                We counted the number of distinct Medicare beneficiaries who
 CAH and acute-care           Table 1
                                        outpatient                           received inpatient and outpatient services.
 hospital inpatient and
                                        files
 outpatient departments
                                                                 We matched each Heathcare Common Procedure Coding
                                                                       System (HCPCS) code—which described the service
                                                               provided—to its Berenson-Eggers Type of Service (BETOS)
 CAHs’ most frequently                                           code, which groups HCPCS codes into readily understood
                                        Outpatient                                 38
 provided types of            Table 2                          clinical categories. We then calculated the frequency with
                                        file
 outpatient services                                          which each BETOS code was represented in CAH outpatient
                                                          claims. We also calculated the frequency with which CAHs’ top
                                                                10 BETOS codes were represented in acute-care hospitals’
                                                                                                            outpatient claims.
                                                         From the cost reports, we retrieved the number of inpatient beds
                                                         and the number of inpatient bed days (days that a bed was used
                                                           to treat an inpatient) at each CAH and acute-care hospital. We
 CAHs’ and acute-care
                                                            found the average number of beds for each group of hospitals,
 hospitals’ bed utilization   Table 3   Cost reports
                                                                  and multiplied that number by 365 to calculate the annual
 rates for all patients
                                                              average number of available bed days. We then divided the
                                                          number of inpatient bed days by this number to get the inpatient
                                                                                              utilization rate for each group.
                                                          From the cost reports, we retrieved the number of inpatient bed
                                                               days that were used by Medicare beneficiaries and the total
 Medicare beneficiaries’
                                                                 number of inpatient bed days at each CAH and acute-care
 utilization of inpatient
                              Chart 1   Cost reports            hospital. We then divided the number of inpatient days that
 services at CAHs and
                                                                were used by Medicare beneficiaries by the total number of
 acute-care hospitals
                                                            inpatient bed days to calculate the percentage of inpatient bed
                                                         days used by Medicare beneficiaries for each group of hospitals.
 Sources of CAHs’ and                                            We counted the number of CAH and acute-care hospital
 acute-care hospitals’        Chart 2   Inpatient file                                                              39
 inpatient admissions                                              admissions that came from each admission source.

                                                                     We counted the number of times each MS-DRG was
 CAHs’ most frequently                                       represented in CAH inpatient claims. We also calculated the
                              Table 4   Inpatient file
 billed MS-DRGs                                                  frequency with which each CAHs’ top 10 MS-DRGs were
                                                                       represented in acute-care hospital inpatient claims.
 Percentages of surgical                                    We counted the number of surgical and medical MS-DRGs at
 and medical MS-DRGs                                         CAHs and acute-care hospitals by matching the MS-DRGs
 for which CAHs and           Chart 3   Inpatient file        billed to CMS’s list of FY 2011 MS-DRGs, which classified
 acute-care hospitals                                                                                                 40
 billed Medicare                                                                MS-DRGs as either surgical or medical.
                                                                                                        continued on next page




                     38
                        CMS, Berenson-Eggers Type of Service (BETOS) Codes. Accessed at
                     http://www.cms.gov/Medicare/Coding/HCPCSReleaseCodeSets/BETOS.html on
                     August 5, 2013.
                     39
                        Research Data Assistance Center, Claim Inpatient Admission Type Code. Accessed at
                     http://www.resdac.org/cms-data/variables/Claim-Inpatient-Admission-Type-Code on
                     July 30, 2013.
                     40
                        75 Fed. Reg. 50042, 50548 (Aug. 16, 2010).

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                   22
Table A-1: Analyses, Sources, and Methods by Table or Chart, Continued

                              Table/
 Analysis                               Source                                                                      Method
                              Chart
                                                       From the cost reports, we retrieved the average length of stay for
 CAH patients’ average                  Cost               each CAH’s inpatients. We then grouped the CAHs based on
                              Chart 4
 lengths of stay                        reports        their average lengths of stay and counted the number of CAHs in
                                                                                                                each group.
                                        Inpatient       We counted the number of CAHs that provided specific revenue
 Departments from which                                    center codes on their inpatient or outpatient claims. Revenue
                                        and
 more than 60 percent of      Table 5                          center codes describe specialized units or departments in
                                        outpatient
 CAHs provided services                                                                                                    41
                                        files                                                                    hospitals.
                                        Inpatient       We counted the number of CAHs that provided specific revenue
 Departments from which
                                        and                center codes on their inpatient or outpatient claims. Revenue
 fewer than 50 percent of     Table 6
                                        outpatient             center codes describe specialized units or departments in
 CAHs provided services
                                        files                                                                      hospitals.
                                                         We used the cost report data to determine the number of CAHs
                                                         and acute-care hospitals that provided swing-bed services. We
                                                               also retrieved the number of inpatient beds, as well as the
                                                           number of swing-bed days (the number of days each bed was
 CAHs’ swing-bed                                           used to provide skilled nursing services to a patient), for each
                                        Cost
 utilization rates for all    Table 7                     group of hospitals. We multiplied the number of inpatient beds
                                        reports
 patients                                                  available by 365 to calculate the number of total available bed
                                                         days for each group. We then divided the total swing-bed days
                                                          by the total available bed days to calculate the total swing-bed
                                                         days as a percentage of total available bed days for each group
                                                                                                                of hospitals.
                                                          We counted the number of CAHs that submitted claims from a
                                                                     distinct-part unit and the number of distinct Medicare
 Distinct-part units at                 Inpatient            beneficiaries who received services in those units. We then
                              Table 8
 CAHs                                   file           divided the total number of Medicare beneficiaries by the number
                                                                   of CAHs to calculate the average number of Medicare
                                                                                                    beneficiaries per CAH.
 Source: OIG analysis method, 2013.




                       41
                         Research Data Assistance Center, Revenue Center Code. Accessed at
                       http://www.resdac.org/sites/resdac.org/files/Revenue%20Center%20Table.txt on
                       August 5, 2013.

Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                                                  23
                       APPENDIX B

                       Distribution of CAHs across All States




                      AK




Source: OIG analysis of NCH inpatient and outpatient claims files, 2013.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)   24
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office; Thomas Komaniecki, Deputy Regional Inspector General; and
                   Laura Kordish, Deputy Regional Inspector General.
                   Lisa Minich served as the team leader for this study, and Elliot Curry
                   served as the lead analyst. Other Office of Evaluation and Inspections
                   staff from the Chicago regional office who conducted the study include
                   Brian Jordan. Central office staff who provided support include
                   Clarence Arnold, Heather Barton, and Christine Moritz.




Services Provided by Critical Access Hospitals in 2011 (OEI-05-12-00081)                      25
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
